k.

In The SUPREME COURT OF THE UNITED STATES
Darrell K Saunders
Vinita K Saunders,
Applicant/Petitioner,
v.

Deutsche Bank National Trust Company
As Trustee for CDC Mortgage Capital Trust
2003-HE3, Mortgage,

Respondent.

PETITION FOR WRIT OF CERTIORARI

SERVICE
Troutman Sanders LLP
222 Central Park Avenue
Suite 2000
Virginia Beach, VA 23462
Counsel for the Respondent Deutsche Bank National Trust Company
Counsel for the Respondent was served with three copies of the amended and corrected Writ
Of Certiorari on November 22, 2019

Darrell K Saunders
Vinita K Saunders
2410 Haywood Ave.
Chesapeake, Virginia 23324
757-652-8828

